App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PACIFIC CHOICE SEAFOOD
COMPANY; SEA PRINCESS,
LLC; PACIFIC FISHING, LLC,
Plaintiffs-Appellants,

No. 18-15455
D.C. No.
4:15-cv-05572-HSG

v.

OPINION

WILBUR ROSS, U.S. Secretary
of Commerce; NATIONAL MARINE FISHERIES SERVICE,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr, District Judge, Presiding
Argued and Submitted December 4, 2019
San Francisco, California
Filed September 25, 2020
Before: Sidney R. Thomas, Chief Judge, and William
A. Fletcher and Eric D. Miller, Circuit Judges.
Opinion by Judge Miller
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

COUNSEL
Ryan P. Steen (argued) and Jason T. Morgan, Stoel
Rives LLP, Seattle, Washington, for Plaintiffs-Appellants.

App. 2
David Gunter (argued) and Bridget Kennedy McNeil,
Attorneys; Eric Grant, Deputy Assistant Attorney
General; Jeffrey Bossert Clark, Assistant Attorney
General; Environment and Natural Resources Division, United States Department of Justice; Maggie B.
Smith, Ofﬁce of the General Counsel, National Oceanic
and Atmospheric Administration, Washington, D.C.;
for Defendants-Appellees.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
MILLER, Circuit Judge.
In 2010, the National Marine Fisheries Service
implemented a quota system for the Paciﬁc non-whiting groundﬁsh ﬁshery, one of several stocks of ﬁsh that
the Service administers in the Paciﬁc Ocean. Acting
under the Magnuson-Stevens Fishery Conservation
and Management Act of 1976, 16 U.S.C. §§ 1801-1891d
(the Magnuson-Stevens Act or the Act), the Service imposed a quota limiting the total allowable catch, divided it among the participants in the ﬁshery, and
prohibited any one entity from “own[ing] or control[ling]” more than 2.7 percent of the outstanding
quota share. 50 C.F.R. § 660.140(d)(4)(i). The Service
deﬁned “control” to include “the ability through any
means whatsoever to control or have a controlling
inﬂuence over” an entity with quota share. Id.
§ 660.140(d)(4)(iii)(H).
In 2015, the Service determined that Paciﬁc
Choice Seafood Company and related entities

App. 3
(collectively, Paciﬁc Choice) together owned or controlled at least 3.8 percent of the quota share. After the
Service ordered Paciﬁc Choice to divest its excess
share, Paciﬁc Choice brought this action, alleging that
the Service’s 2.7 percent maximum share and its “control” rule exceeded its authority under the MagnusonStevens Act and violated the Administrative Procedure Act. The district court granted summary judgment to the Service. We afﬁrm.
I
Congress enacted the Magnuson-Stevens Act to
prevent overﬁshing and to ensure that “ﬁsheries [are]
conserved and maintained so as to provide optimum
yields on a continuing basis.” 16 U.S.C. § 1801(a)(5).
The Act establishes eight regional ﬁshery management councils, each of which is charged with developing a “ﬁshery management plan” for the ﬁsheries in its
region. Id. § 1852(a)(1), (h)(1). A management plan
must prescribe measures “necessary and appropriate
for the conservation and management of the ﬁshery.”
Id. § 1853(a)(1), (b)(3). Once a council develops a plan,
the Secretary of Commerce must evaluate it and either
approve or reject it. Id. § 1854(b)(1). The Secretary has
delegated that responsibility to the Service. See Paciﬁc
Dawn LLC v. Pritzker, 831 F.3d 1166, 1170 (9th Cir.
2016).
In 1990, the regional ﬁshery councils began to regulate some ﬁsheries by adopting quota programs under
which the councils divided up the total allowable catch

App. 4
and gave participants in the ﬁshery the right to harvest a speciﬁed quantity of ﬁsh. See Paciﬁc Coast Fed’n
of Fishermen’s Ass’ns v. Blank, 693 F.3d 1084, 1087 (9th
Cir. 2012). Such programs proved controversial, and in
1996, Congress imposed a temporary moratorium on
new quota programs. Sustainable Fisheries Act, Pub.
L. No. 104-297, § 108(e), 110 Stat. 3559, 3576-77
(1996). In 2007, after the National Academy of Sciences
concluded that quota programs “can be effective solutions to a host of ﬁshery-related problems, including
economic inefﬁciency, overcapitalization . . . and overﬁshing,” Congress reauthorized new quota programs,
which it called “limited access privilege programs.” Paciﬁc Coast, 693 F.3d at 1087-88; see Magnuson-Stevens
Fishery Conservation and Management Reauthorization Act of 2006, Pub. L. No. 109-479, § 106, 120 Stat.
3575, 3586 (2007).
Congress set out several requirements for limited
access privilege programs. Most relevant here, a
council must ensure that no one entity acquires “an
excessive share” of the total privileges. 16 U.S.C.
§ 1853a(c)(5)(D). To that end, a council must establish
“a maximum share, expressed as a percentage of the
total limited access privileges, that a limited access
privilege holder is permitted to hold, acquire, or use,”
along with “any other limitations or measures necessary to prevent an inequitable concentration of limited
access privileges.” Id.
This case involves the limited access privilege program for the Paciﬁc non-whiting groundﬁsh ﬁshery. As
their name suggests, groundﬁsh live near the bottom

App. 5
of the ocean. See West Coast Groundﬁsh, National Oceanic and Atmospheric Administration, https://www.
ﬁsheries.noaa.gov/species/west-coast-groundﬁsh. The
ﬁshery consists of more than 90 species of groundﬁsh
in the Paciﬁc Ocean off the coast of California, Oregon,
and Washington, including lingcod, sableﬁsh, sole, and
rockﬁsh, but not including the Paciﬁc whiting, or hake,
which is regulated separately. See 50 C.F.R. § 660.140,
table 1 to paragraph (d)(1)(ii)(D). The relevant regional
council for the ﬁshery is the Paciﬁc Fishery Management Council, which has representatives from California, Oregon, Washington, and Idaho, as well as from
Indian tribes with federally recognized ﬁshing rights
in those States. 16 U.S.C. § 1852(a)(1)(F).
Even before Congress reauthorized limited access
privilege programs in 2007, the Council had started to
implement a rationalization program for the Paciﬁc
ﬁsheries it manages. In this context, “rationalization”
means avoiding overcapacity—the presence of more
ﬁshing vessels than necessary to catch a sustainable
number of ﬁsh—by, among other things, reducing the
number of vessels operating in the Council’s ﬁsheries.
In addition to reducing overﬁshing, the Council aimed
to “increase net economic beneﬁts” from its ﬁsheries
and to create “individual economic stability” for vessels
that operated within them. Paciﬁc Coast, 693 F.3d at
1089.
The Council’s years-long deliberative process began with the Trawl Individual Quota Committee, a
committee of industry representatives formed to analyze possible quota limits on both an aggregate and

App. 6
per-species level. In 2003, relying on data from aggregate average catches from 1994 to 2003, the Quota
Committee proposed several possible limits on the aggregate quota share that could be held by any one entity, ranging from 1.5 to 5 percent of the total allowable
catch.
After the Quota Committee completed its analysis,
the Groundﬁsh Allocation Committee reviewed the
recommendations and “added three options for the
Council’s consideration,” ranging from the average
maximum share for the 1994-2003 period to 1.5 times
those limits. The Allocation Committee’s report paid
particular attention to the “maximum ﬂeet consolidation level” that each option would create—in other
words, how much market concentration would result.
Part of the Allocation Committee’s analysis involved
calculating a Herﬁndahl-Hirschman index, or “HHI,” a
measure of market concentration commonly employed
in the antitrust context. See Saint Alphonsus Med.
Ctr.-Nampa Inc. v. St. Luke’s Health Sys., Ltd., 778 F.3d
775, 786 (9th Cir. 2015). That analysis suggested that
the Council could set aggregate catch limits up to
about 18 percent without creating anticompetitive effects in the ﬁshery.
But after signiﬁcant deliberation among the
Quota Committee, the Allocation Committee, and the
Council, the Allocation Committee failed to agree on a
single recommendation. After proposing two new options, the Allocation Committee asked yet another
committee—the Groundﬁsh Management Team—to
evaluate all of the options that had been proposed.

App. 7
The Management Team began by noting that
while “[a]ntitrust concerns deﬁne the upper extreme of
where limits can be set,” ﬁshing quotas are also “a tool
for balancing the Council’s social objectives against the
undesired effects of the . . . drive toward increased economic efﬁciency.” In contrast to the Quota Committee
and the Allocation Committee, which had focused on
aggregate revenues, the Management Team focused on
per-vessel proﬁtability. It analyzed historical data on a
per-vessel basis to determine the current proﬁtability
of the ﬁshery. It then projected proﬁtability based on
varying ﬂeet sizes, and it cautioned that “concerns
about control” resulting from higher quota share maximums “go beyond revenues” and involve “other issues
such as bargaining, market power, and types of relationships that may inﬂuence the operation of the ﬁshery.” In light of its conclusion that a ﬂeet size of 40 to
50 vessels would provide optimal proﬁtability while
minimizing “control and consolidation of quota ownership,” the Management Team presented possible maximum quota shares ranging from approximately 1.3 to
3.8 percent but ultimately recommended a limit of 2.3
to 2.7 percent depending on the desired amount of consolidation.
The Management Team’s per-vessel approach
mostly won out. In March 2009, the Groundﬁsh Advisory Subpanel evaluated proposals from the Management Team and the Allocation Committee and issued
a brief report. The Advisory Subpanel acknowledged
the “trade-off ” recognized by the Management Team
“between preventing excessive market control . . . and

App. 8
the lower revenues and efﬁciency associated with control limits that are set too low.” It recommended a 2.7
percent maximum aggregate quota share, which it
noted was the “mid range of the data” in the Management Team’s report. The Advisory Subpanel did not
completely adopt the Management Team’s recommendations; some of its proposed limits for individual species instead matched the Allocation Committee’s
recommendations, or proposed a limit not recommended by either committee.
After further deliberation on several matters not
at issue here, the Council proposed Amendment 20 to
the overall ﬁshery plan implementing the limited access privilege program, including the 2.7 percent aggregate catch limit. 75 Fed. Reg. 53,380 (Aug. 31, 2010);
75 Fed. Reg. 32,994 (June 10, 2010). The Service approved the plan in August 2010 with some technical
changes, and it ﬁnalized the relevant rules in October
and December of that year. See 75 Fed. Reg. 78,344
(Dec. 15, 2010); 75 Fed. Reg. 60,868 (Oct. 1, 2013). The
Service and the Council also jointly published a ﬁnal
environmental impact statement containing an extensive discussion of the agency’s development of the limited access privilege program.
At the same time, the Service adopted a “control”
rule to enforce the provision of section 1853a that
prohibits anyone with limited access privileges from
“hold[ing], acquir[ing], or us[ing]” any quota share
exceeding the regulatory maximum. 16 U.S.C.
§ 1853a(c)(5)(D)(i); see 75 Fed. Reg. at 60,954-55. In the
ﬁnal rule, the Service interpreted section 1853a as

App. 9
authorizing it to prohibit permit holders from
“own[ing] or control[ling]” quota share above the maximum. 50 C.F.R. § 660.140(d)(4)(i)(A). It then deﬁned
“control” as, among other things, the “ability through
any means whatsoever to control or have a controlling
inﬂuence” over an entity holding quota share. 50 C.F.R.
§ 660.140(d)(4)(iii)(H).
Not everyone welcomed the new rule. Paciﬁc
Choice operates a seafood-processing facility in Eureka, California, and indirectly controls several vessels
that participate in the ﬁshery. After signiﬁcant delay
while the Service worked out divestiture procedures
for entities holding excess share, the Service eventually implemented the 2010 rule and notiﬁed Paciﬁc
Choice that it held at least 3.8 percent of the ﬁshery’s
quota share. That share exceeded the 2.7 percent maximum and triggered the divestiture provisions. See 50
C.F.R. § 660.140(d)(4)(v). The Service issued various
moratoria on the requirement to transfer excess quota
share after an initial allocation, but in November 2015,
it issued a ﬁnal rule requiring divestiture. See 80 Fed.
Reg. 69,138 (Nov. 9, 2015).
Paciﬁc Choice complied with the divestiture requirement and brought this action against the Service
soon thereafter. On cross-motions for summary judgment, the district court granted summary judgment for
the Service, concluding that Paciﬁc Choice had not established that either the 2.7 percent maximum share
or the Service’s control rule violated the Act or the
APA.

App. 10
II
We begin by considering whether we have jurisdiction to hear this case. Neither party has raised the issue, but we have a duty to determine whether we have
jurisdiction, “even though the parties are prepared to
concede it.” Spencer Enters., Inc. v. United States, 345
F.3d 683, 687 (9th Cir. 2003) (quoting Bender v. Williamsport Area Sch. Dist., 475 U.S. 534, 541 (1986)).
The question is whether Paciﬁc Choice’s suit was
timely. The Act requires any challenge to agency actions or “[r]egulations promulgated by the Secretary”
to be ﬁled within 30 days of “the date on which the regulations are promulgated or the action is published in
the Federal Register.” 16 U.S.C. § 1855(f )(1). We have
held that the Act’s time limits are jurisdictional. See
Sea Hawk Seafoods, Inc. v. Locke, 568 F.3d 757, 765
(9th Cir. 2009). There is reason to doubt whether that
characterization is consistent with more recent Supreme Court decisions, which have clariﬁed that ﬁling
deadlines are generally non-jurisdictional claim-processing rules. See, e.g., Henderson ex rel. Henderson v.
Shinseki, 562 U.S. 428, 434-36 (2011). But even under
the Court’s newer, more restrictive approach, at least
some time limits for claims against the government remain jurisdictional. See John R. Sand & Gravel Co. v.
United States, 552 U.S. 130, 139 (2008). Our prior cases
are not “clearly irreconcilable” with any intervening
Supreme Court decision, and we remain bound by
them. Miller v. Gammie, 335 F.3d 889, 893 (9th Cir.
2003) (en banc).

App. 11
Paciﬁc Choice ﬁled suit on December 4, 2015,
which obviously was more than 30 days after the Service’s 2010 rule. The lawsuit also came more than 30
days after the Service enforced the 2010 rule against
Paciﬁc Choice through its July 28, 2015 letter.
We nevertheless conclude that Paciﬁc Choice’s suit
was timely because it was brought within 30 days of
the Service’s publication of the 2015 rule requiring divestiture. A timely challenge to an agency’s action
“may challenge both the action and the regulation under which the action is taken.” Oregon Troller’s Ass’n v.
Gutierrez, 452 F.3d 1104, 1113 (9th Cir. 2006). The
2015 rule constituted an “action,” which the Act deﬁnes
to include any “actions . . . taken by the Secretary under regulations which implement a ﬁshery management plan.” 16 U.S.C. § 1855(f )(2); see also Oregon
Troller’s Ass’n, 452 F.3d at 1115-16. And although Paciﬁc Choice does not reassert on appeal the challenges
it raised below to the 2015 rule, if it prevailed in this
case, it could regain the share it was required to divest.
We therefore conclude that Paciﬁc Choice’s suit was
timely under section 1855(f )(1). See Oregon Troller’s
Ass’n, 452 F.3d at 1113-14; see also California Sea Urchin Comm’n v. Bean, 828 F.3d 1046, 1049 (9th Cir.
2016).
III
Paciﬁc Choice raises two challenges to the 2.7 percent quota share limit. First, it argues that the Service
misinterpreted the term “excessive share” in section

App. 12
1853a(c)(5)(D) by sidelining considerations of market
power in favor of per-vessel proﬁtability. Second, it argues that the Service acted arbitrarily and capriciously
by failing to consider all relevant factors and relying
on insufﬁcient analysis in choosing the 2.7 percent
limit. We review the district court’s decision de novo,
see Paciﬁc Dawn, 831 F.3d at 1173, and we reject both
challenges.
A
We begin with Paciﬁc Choice’s argument that the
2.7 percent maximum share contravenes the Magnuson-Stevens Act. At the outset, we acknowledge
some uncertainty as to exactly what Paciﬁc Choice believes the Service’s interpretive error to be. In its opening brief, Paciﬁc Choice asserted that “ ‘[e]xcessive
share,’ as used in 16 U.S.C. § 1853a(c)(5)(D) . . . means
‘conditions of monopoly or oligopoly,’ ” and that the Service violated the Act because it “relied on . . . factors
outside the scope of [section 1853a(c)(5)(D)] by setting
a maximum share that reﬂected ‘a chance of generating a reasonable proﬁt.’ ” That language suggests that
it is improper for the Service to consider any factors
other than market power, or at least that it is improper
for the Service to consider whether a maximum share
will allow reasonable proﬁts. But in its reply brief, Paciﬁc Choice rejected that suggestion as “a straw man,”
disclaiming the argument that the Service “may only
consider market power” and arguing instead that
“market power is an essential and indispensable factor” for determining a maximum share, which the

App. 13
Service ignored by “bas[ing] the limit solely on other
factors.”
To the extent Paciﬁc Choice means that market
power is one of many factors that the Service must consider, we do not think the Service disagrees. To the contrary, when asked at oral argument if the Service is
required to consider market power, counsel for the Service said yes. And in promulgating the 2010 rule, the
Service explained that the Council had “considered a
wide range of factors such as social beneﬁts, impact on
labor, impacts on processors, impacts on harvesters,
impacts on the public, the number and sizes of ﬁrms,
within-sector competition, market power, efﬁciency, geographic distribution, communities, and fairness and
equity.” 75 Fed. Reg. at 33,004 (emphasis added). The
Service advanced a similar interpretation in a 2007
guidance document instructing ﬁshery councils to consider “market power including monopoly . . . or monopsony” in designing limited access privilege programs.
Paciﬁc Choice appears to believe, however, that
considering market power as one of several factors is
not enough. Instead, we understand Paciﬁc Choice’s
statutory argument to be that whatever limit the Service sets, it must in some sense be “based on” marketpower considerations. In other words, Paciﬁc Choice’s
argument implies that it would be improper for the
Service to determine that a particular limit would prevent any market participant from exercising market
power but then to set a lower limit that reﬂects other
considerations. We note that where, as here, market
power could be avoided with a higher limit than is

App. 14
needed to achieve other objectives, Paciﬁc Choice’s position is not so different, in practice, from a rule that
the Service may consider only market power.
In assessing Paciﬁc Choice’s statutory argument,
we apply the framework of Chevron U.S.A. Inc. v.
NRDC, Inc., 467 U.S. 837 (1984). “[W]hen an agency is
authorized by Congress to issue regulations and promulgates a regulation interpreting a statute it enforces,
the interpretation receives deference if the statute is
ambiguous and if the agency’s interpretation is reasonable.” Encino Motorcars, LLC v. Navarro, 136 S. Ct.
2117, 2124 (2016).
Our ﬁrst step is to determine whether Congress
has “directly addressed the precise question at issue.”
Chevron, 467 U.S. at 843. We conclude that it has not.
The relevant statutory text directs the Service to
(D) ensure that limited access privilege holders do not acquire an excessive share of
the total limited access privileges in the
program by—
(i)

establishing a maximum share, expressed as a percentage of the total
limited access privileges, that a limited access privilege holder is permitted to hold, acquire, or use; and

(ii) establishing any other limitations or
measures necessary to prevent an inequitable concentration of limited access privileges.

App. 15
16 U.S.C. § 1853a(c)(5)(D). That provision deﬁnes neither “excessive share” nor “maximum share,” and it
contains no reference to market power. Other provisions of the same section make clear that limited access privilege programs are to serve a variety of
objectives. Speciﬁcally, such programs “shall . . . promote—(i) ﬁshing safety; (ii) ﬁshery conservation and
management; and (iii) social and economic beneﬁts.”
Id. § 1853a(c)(1)(C).
Paciﬁc Choice points to a separate section of the
Act that outlines standards for ﬁshery management
and instructs the Service to ensure that allocations of
quota share are “(A) fair and equitable to all such ﬁshermen; (B) reasonably calculated to promote conservation; and (C) carried out in such manner that no
particular individual, corporation, or other entity acquires an excessive share of such privileges.” 16 U.S.C.
§ 1851(a)(4). Like section 1853a(c)(5)(D), however, that
provision does not say what Congress meant by “excessive share.” And the next paragraph makes clear that
although the Service must “consider efﬁciency” in developing ﬁshery management measures, economic
efﬁciency is not the only goal: “no such measure shall
have economic allocation as its sole purpose.” Id.
§ 1851(a)(5).
Paciﬁc Choice emphasizes that the Service previously interpreted section 1851(a)(4)’s “excessive share”
clause to “imply conditions of monopoly or oligopoly.”
60 Fed. Reg. 61,200, 61,202 (Nov. 29, 1995). The Service’s prior interpretations cannot transform otherwise
ambiguous statutory text into an unambiguous

App. 16
command because “the whole point of Chevron is to
leave the discretion provided by the ambiguities of a
statute with the implementing agency.” Smiley v. Citibank (S.D.), N.A., 517 U.S. 735, 742 (1996). In any
event, the Service’s belief that the term “excessive
share” “impl[ies]” market power is itself far from an
unambiguous statement that market power must have
singular importance—almost by deﬁnition, one cannot
“directly address[ ]” an issue by implication. Chevron,
467 U.S. at 843.
Paciﬁc Choice also relies on the Act’s legislative
history, but legislative history cannot “supply mandatory requirements not found within the [MagnusonStevenson Act] itself.” Paciﬁc Coast, 693 F.3d at 1093.
Even if it could, the legislative history here does not do
so. Paciﬁc Choice points to two ﬂoor statements from
individual Representatives indicating that Congress
was concerned about preventing “excessive and inequitable consolidation at the expense of small-scale
ﬁshermen,” 152 Cong. Rec. 23,359 (Dec. 8, 2006) (statement of Rep. Allen), and wanted to “protect[ ] small
ﬁshermen from those who would like to consolidate
ﬁsheries,” id. at 23,360 (statement of Rep. Rahall).
Those statements reﬂect a desire to protect small ﬁshing operations, but, like the statutory text, they do not
suggest that the maximum share must be no more restrictive than necessary to avoid excessive concentration.
Because the Act is ambiguous as to what factors
the Service must consider in setting a maximum share,
we turn to step two of the Chevron framework: whether

App. 17
the Service has adopted a “reasonable interpretation”
of the statute. 467 U.S. at 844. We have previously held
that the Act gives the Service “broad discretion” to
carry out its provisions. Northwest Envtl. Def. Ctr. v.
Brennan, 958 F.2d 930, 935 n.3 (9th Cir. 1992). Congress directed the Service to consider a wide range of
factors in establishing limited access privilege programs, including “the basic cultural and social framework of the ﬁshery” and “the sustained participation of
small owner-operated ﬁshing vessels and ﬁshing communities that depend on the ﬁsheries.” 16 U.S.C.
§ 1853a(c)(5)(B). In light of those objectives, it was reasonable for the Service to conclude that other factors
can dictate a lower maximum share than might be required by a singular focus on preventing excessive
market power—or, in other words, that the Service
may attempt to do something more than act simply as
a ﬁshery-speciﬁc version of the Federal Trade Commission or the Justice Department’s Antitrust Division.
Paciﬁc Choice suggests that the Service erred in
interpreting the Act to permit consideration of
whether vessels would have a “chance at generating a
reasonable proﬁt.” We disagree. The Act requires the
Service to “include measures to assist, when necessary
and appropriate, entry-level and small vessel owneroperators, captains, crew, and ﬁshing communities.” 16
U.S.C. § 1853a(c)(5)(C). While Congress noted that
those measures might “includ[e] . . . set-asides of harvesting allocations” or “economic assistance,” it did not
say that those actions were the only such measures the
Service could adopt. Id. Instead, Congress left it to the

App. 18
Service to determine when and how assisting small
vessel owner-operators might be “necessary and appropriate.” Id. Giving weight to the chance of generating
a proﬁt was a reasonable way to implement Congress’s
directive.
B
Although the Service permissibly interpreted the
Act, we still must ensure that the 2.7 percent maximum share is not “arbitrary, capricious, [or] an abuse
of discretion.” 5 U.S.C. § 706(2)(A). That standard is
deferential: as long as an agency has “examine[d] the
relevant data and articulate[d] a satisfactory explanation for its action including a ‘rational connection between the facts found and the choice made,’ ” the
Supreme Court has made clear that “a court is not to
substitute its judgment for that of the agency.” Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto.
Ins. Co., 463 U.S. 29, 43 (1983) (quoting Burlington
Truck Lines v. United States, 371 U.S. 156, 168 (1962));
accord FCC v. Fox Television Stations, Inc., 556 U.S.
502, 513-14 (2009).
As an initial matter, the Service asks us to disregard Paciﬁc Choice’s objections because Paciﬁc Choice
did not raise them before the agency. Generally, a
“party forfeits arguments that are not raised during
the administrative process.” Lands Council v. McNair,
629 F.3d 1070, 1076 (9th Cir. 2010). But we will consider any issue that was “raised with sufﬁcient clarity
to allow the decision maker to understand and rule on

App. 19
the issue raised, whether the issue was considered sua
sponte by the agency or was raised by someone other
than the petitioning party.” Glacier Fish Co., LLC v.
Pritzer, 832 F.3d 1113, 1120 n.6 (9th Cir. 2016) (internal quotation marks and citation omitted). Because the
Service in fact examined the issues that Paciﬁc Choice
now raises, including in response to other commenters
during the notice-and-comment period, we consider
them on the merits.
In assessing the Service’s decision, we “review the
whole record,” 5 U.S.C. § 706, which includes “everything that was before the agency pertaining to the
merits of its decision.” Portland Audubon Soc. v. Endangered Species Comm., 984 F.2d 1534, 1548 (9th Cir.
1993). Paciﬁc Choice urges us to examine only the Service’s decision memoranda while ignoring the Council’s
materials, including analyses by the Quota Committee,
the Allocation Committee, the Management Team, and
the Advisory Subpanel. Although the Act requires the
Service to “evaluat[e]” the Council’s proposed regulations to “determine whether they are consistent with
the ﬁshery management plan” and with the Act, it does
not require the Service to engage in a lengthy discussion of every aspect of the plan or to repeat points already made by the Council and its committees. 16
U.S.C. § 1854(b)(1). Instead, when the Service ﬁnds
that an amendment is consistent with a ﬁshery plan,
the Act requires it to do no more than “publish such
regulations in the Federal Register,” along with any
“technical changes as may be necessary for clarity and
an explanation of those changes.” Id. § 1854(b)(1)(A).

App. 20
Paciﬁc Choice offers no authority supporting its assertion that we should focus exclusively on the Service’s
memoranda from the very end of the administrative
process. To the contrary, we have previously upheld the
Service’s regulations on the basis of ﬁndings by the
Council and its committees. See Fisherman’s Finest,
Inc. v. Locke, 593 F.3d 886, 896 (9th Cir. 2010).
Paciﬁc Choice contends that the Service’s decisionmaking process was ﬂawed in two ways: the Service
“failed to consider an important aspect of the problem”
by ignoring market power altogether, State Farm, 463
U.S. at 43, and it also failed to articulate “the methods
by which, and the purposes for which” it set the maximum share at 2.7 percent rather than at some other
percentage, San Antonio, Tex. ex rel. City Pub. Serv. Bd.
v. United States, 631 F.2d 831, 852 (D.C. Cir. 1980). We
reject both of those arguments.
First, the record shows that the Service did consider market power. After the Quota Committee completed its initial analysis based on historical aggregate
revenue, the Allocation Committee examined the degree of concentration within the ﬁshery, calculating an
HHI. Relying on Department of Justice antitrust
guidelines deﬁning a concentrated market based on
HHI, the Allocation Committee concluded that all of
the options then under consideration—ranging from
1.5 to 5 percent—were “unlikely” to “affect market
power.” With the conclusion in hand that marketpower considerations were unlikely to be signiﬁcant
factors in establishing a maximum share, the Service

App. 21
might have understandably decided to ignore market
power.
But contrary to Paciﬁc Choice’s representations,
market-power considerations and economic analyses
continued to play a prominent role in the agency’s consideration of the maximum share. Building on the Allocation Committee’s analysis, the Management Team
acknowledged the dual purposes of setting maximum
shares: the limits not only serve as “preventative
measures against anticompetitive market conditions”
but also “ensure that the beneﬁts . . . arising from the
public ﬁshery resource accrue to a minimum number
of [quota-share] owners.” The Management Team then
conducted an in-depth analysis of the degree of concentration in the ﬁshery, projecting vessel proﬁtability
based on varying levels of market concentration. After
cautioning against the effect that higher quota-share
maximums might have on “bargaining, market power,
and. . . . undue inﬂuence over other aspects of the ﬁshery,” the Management Team presented a range of options from 1.3 to 3.8 percent depending on the Service’s
desired degree of “consolidation” within the ﬁshery.
While Paciﬁc Choice might prefer the higher limits
suggested by the Allocation Committee’s HHI analysis
rather than the lower ones suggested by the Management Team’s economist, we see no reason to secondguess the Management Team’s economic analysis.
Nor did the Management Team offer the ﬁnal
word on market power—the Council itself detailed its
reasoning in an exhaustive overview in the 2010 environmental impact statement, which it issued jointly

App. 22
with the Service. While it is true that the Council
stated that its quota-share limits were “aimed at more
than just preventing market power or other anticompetitive situations,” that is not the same as ignoring
market power.
Second, we conclude that the agency engaged in a
reasoned process from which its path to the 2.7 percent
limit “may reasonably be discerned.” Alaska Dep’t of
Envtl. Conservation v. EPA, 540 U.S. 461, 497 (2004)
(quoting Bowman Transp., Inc. v. Arkansas-Best
Freight Sys., Inc., 419 U.S. 281, 286 (1974)). Paciﬁc
Choice argues that the Advisory Subpanel picked 2.7
percent only because it was the “mid range of the data
presented” in the Management Team’s economic analysis. Even if that were an accurate characterization of
the Advisory Subpanel’s recommendation, it would not
necessarily establish that the Service’s decision was
unreasoned given the extensive discussion of Act’s factors presented at each step of the rulemaking process.
We have upheld similar determinations in the past
where the agency “had to choose some number from a
broad range” and selected “a reasonable ﬁgure.” San
Luis & Delta-Mendota Water Auth. v. Jewell, 747 F.3d
581, 616 (9th Cir. 2014); see Missouri Pub. Serv.
Comm’n v. FERC, 215 F.3d 1, 5-6 (D.C. Cir. 2000).
In any event, Paciﬁc Choice’s interpretation of the
administrative record is not persuasive. Paciﬁc Choice
misconstrues the Advisory Subpanel’s recommendation, which did not state that the panel recommended
2.7 percent because that ﬁgure was in the middle of the
Management Team’s recommendations. Instead, the

App. 23
Advisory Subpanel adopted the Management Team’s
recommendation because it concluded that the “revenue-based approach . . . [was] a useful conceptual approach” for setting a maximum share. The Advisory
Subpanel’s recommendation is brief, but it reveals independent judgment on each aspect of the recommendations from the Allocation Committee and the
Management Team, most notably on individual species
limits.
More generally, we see no reason to focus only on
the Advisory Subpanel’s memo when it constituted just
one step in the lengthy administrative process. Viewed
as a whole, the record contains extensive justiﬁcation
for the 2.7 percent limit. As the Management Team
concluded, that limit accommodates a variety of the
Council’s objectives for setting a maximum share, including “cap[ping] the initial allocation of quota share
at a level that is consistent with” historical quota distributions on the 2003 control date, and allowing more
consolidation in the ﬁshery than a lower limit—such
as 2.3 percent—would accomplish. The Service’s environmental impact statement fully explains how the
agency arrived at the 2.7 percent limit from the Quota
Committee’s initial recommendation of 1.5 to 5 percent.
Under the APA, “we will uphold a decision of less
than ideal clarity if the agency’s path may reasonably
be discerned.” Bowman, 419 U.S. at 286. We have no
difﬁculty in following the Service’s path to the 2.7 percent maximum share, and we hold that the Service did
not act arbitrarily or capriciously in setting it.

App. 24
IV
Paciﬁc Choice also advances statutory and APA
challenges to the Service’s control rule. We reject both.
The Magnuson-Stevens Act requires that the Service “establish[ ] a maximum share . . . that a [share]
holder is permitted to hold, acquire, or use.” 16 U.S.C.
§ 1853a(c)(5)(D)(i). According to Paciﬁc Choice, the Service exceeded the authority granted by that statute
when it interpreted “hold, acquire, or use” to include
“control” and proceeded to deﬁne “control” to include,
among other things, “the ability through any means
whatsoever to control or have a controlling inﬂuence
over the entity to which [quota share] is registered.” 50
C.F.R. §660.140(d)(4)(iii)(H). Paciﬁc Choice argues that
the rule “effectively re-writes Congress’s deﬁnition” by
using the word “control,” which does not appear in the
statute. But the word “acquire,” which does appear in
the statute, means “to come into possession, control, or
power of disposal of.” Webster’s Third New International Dictionary 18 (2002) (emphasis added). If that
were not enough, the word “use” easily encompasses
the concept of control. See Friends of Animals v. United
States Fish & Wildlife Serv., 879 F.3d 1000, 1006-09
(9th Cir. 2018). Beyond that, section 1853a(c)(5)(D)(ii)
gives the Service even broader authority to establish
“any other limitations or measures necessary to prevent an inequitable concentration of limited access
privileges.” 16 U.S.C. § 1853a(c)(5)(D)(ii).

App. 25
Paciﬁc Choice responds that we must read the
statute against a background of ordinary corporatelaw principles, under which a corporation is a distinct
entity from its owners. We agree that Congress drafts
laws while “aware of settled principles of corporate
law.” Dole Food Co. v. Patrickson, 538 U.S. 468, 474
(2003). It is also true that Congress deﬁned the term
“person” in the Act to mean “any individual . . . corporation, partnership, association, or other entity.” 16
U.S.C. § 1802(36). But the Service’s control rule does
not purport to redeﬁne personhood. Instead, it deﬁnes
when a person “own[s] or control[s]” quota share nominally held by other people. 50 C.F.R. § 660.140(d)(4)(i)(A).
That is in no way inconsistent with the common-law
understanding of corporate ownership.
Because the Service’s interpretation of “hold, acquire, or use” represents an exercise of delegated authority, our review of it is governed by Chevron, and we
see nothing in the statute that unambiguously forecloses the Service’s approach. Instead, the Service’s
rule represents a reasonable implementation of Congress’s directive that quota allocations be “fair and equitable” and be “carried out in such manner that no
particular individual, corporation, or other entity acquires an excessive share of such privileges.” 16 U.S.C.
§ 1851(a)(4).
Nor are we persuaded that the rule is arbitrary
and capricious. Paciﬁc Choice does not identify a deﬁciency in the Service’s rulemaking process but instead
argues that the Service’s deﬁnition of “control” is so
broad—and thus so vague—that it constitutes an

App. 26
abuse of discretion. In limited situations, we have recognized that an agency might act arbitrarily and capriciously by “fail[ing] to properly specify” its rules
such that it leaves “no method by which” a regulated
party “can gauge [its] performance.” Arizona Cattle
Grower’s Ass’n v. United States Fish & Wildlife Serv.,
273 F.3d 1229, 1250-51 (9th Cir. 2001). This is not such
a situation.
The rule is indeed broad. Its broadest provision covers any person who “has the ability through any
means whatsoever to control or have a controlling inﬂuence over” an entity holding quota share. 50 C.F.R.
§ 660.140(d)(4)(iii)(H). But breadth is not the same
thing as vagueness. See Pennsylvania Dep’t of Corrections v. Yeskey, 524 U.S. 206, 212 (1998). The rule’s
terms have clear meanings sufﬁcient to inform regulated entities about what types of conduct the Service
will prohibit: ownership or control that evades the Service’s maximum share limits. For example, clause
(d)(4)(iii)(A) deems control satisﬁed when a person
“has the right to direct . . . the business of [an] entity,”
clause (d)(4)(iii)(B) when a person “has the right to
limit the actions of or replace” corporate ofﬁcers, and
clause (d)(4)(iii)(C) when a person “has the right to direct . . . the transfer of ” quota share. It requires no
great leap to read the more general language of clause
(d)(4)(iii)(H) as prohibiting the same sort of thing. See
Yates v. United States, 574 U.S. 528, 545 (2015).
Crucially, we see no ambiguity about whether Paciﬁc Choice “own[ed] or control[led]” the related entities at issue here. Paciﬁc Choice’s brief discloses that

App. 27
each of the six entities that held quota share are
wholly owned either by Frank Dulcich or by a corporation that Dulcich owns. Under any plausible deﬁnition
of “control,” Dulcich controls the Paciﬁc Choice entities.
Because Paciﬁc Choice is subject to the control rule
even under its narrowest construction, we need not
consider the rule’s outermost limits or whether, in
some other case, the Service might abuse its discretion
by applying the rule in a surprising or unforeseeable
way. See Village of Hoffman Estates v. Flipside, Hoffman Estates, Inc., 455 U.S. 489, 495 (1982) (“A plaintiff
who engages in some conduct that is clearly proscribed
cannot complain of the vagueness of the law as applied
to the conduct of others.”).
AFFIRMED.

App. 28
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
PACIFIC CHOICE
SEAFOOD COMPANY,
et al.,
Plaintiffs,
v.
WILBUR ROSS,1 et al.,
Defendants.

Case No. 15-cv-05572-HSG
ORDER DENYING
PLAINTIFFS’ MOTION
FOR SUMMARY JUDGMENT AND GRANTING
DEFENDANTS’ MOTION
FOR SUMMARY JUDGMENT
Re: Dkt. Nos. 70, 78
(Filed Feb. 21, 2018)

Pending before the Court are Plaintiffs’ and Defendants’ cross motions for summary judgment. Dkt.
Nos. 70, 78. In this action, Plaintiffs Paciﬁc Choice Seafood Company, Sea Princess, LLC, and Paciﬁc Fishing,
LLC challenge certain provisions of a federal ﬁsheries
management program that establishes an individual
ﬁshing quota program (the “IFQ Program”). For the
reasons detailed below, the Court DENIES Plaintiffs’
motion and GRANTS Defendants’ motion for summary
judgment.

1

Wilbur Ross is now the Secretary of Commerce. Pursuant
to Federal Rule of Civil Procedure 25(d), Wilbur Ross is substituted for Penny Pritzker as the defendant in this suit.

App. 29
I.

BACKGROUND

This case concerns the manner in which the Secretary of Commerce and the National Marine Fisheries
Service (“NMFS”) regulate the ﬁshing of Paciﬁc nonwhiting ﬁsh species off the coasts of Washington, Oregon, and California.
A. Statutory Background
Congress enacted the Magnuson-Stevens Fishery
Conservation Act (“Magnuson Act” or the “Act”) to “conserve and manage the ﬁshery resources found off the
coasts of the United States” and “to promote domestic
commercial and recreational ﬁshing under sound conservation and management principles.” 16 U.S.C.
§ 1801(b)(1),(3). The Act established eight regional
ﬁshery management councils, tasked with developing
ﬁshery management plans (“FMP”) and any necessary
amendments and implementing regulations to
“achieve and maintain, on a continuing basis, the optimum yield from each ﬁshery.” 16 U.S.C. §§ 1801(b)(4)–
(5), 1852(a)(1)(F),(h)(1), 1853(c). NMFS, acting on behalf of the Secretary, reviews these FMPs to ensure
compliance with national standards for ﬁshery conservation and management, the Magnuson Act, and any
other applicable law.2 See id. §§ 1851(a), 1854.
As part of a region’s FMP, the councils may limit
access to the ﬁshery through limited access privilege
2

Because NMFS acts on behalf of the Secretary, the Court
refers primarily to “NMFS” rather than the Secretary or the Defendants collectively in this order.

App. 30
programs (“LAPPs”) such as quotas. See 16 U.S.C.
§§ 1802(26), 1853a. In creating such a program, councils must take into account several factors: participation in the ﬁshery; historical ﬁshing practices;
economics; capability of vessels to engage in other ﬁsheries; cultural and social framework and affected ﬁshing communities; fair and equitable distribution of
access privileges; and other relevant considerations.
Id. §§ 1853(b)(6), 1853a(c). The councils must also ensure that no privilege holders “acquire an excessive
share” of the total limited access privileges. See id.
§ 1853a(c)(5)(D). Moreover, any privilege created under a LAPP “may be revoked, limited, or modiﬁed at
any time.” See id. § 1853a(b)(2).
B. Pacific Groundfish Fishery
At issue in this case are amendments to the Paciﬁc
Coast Groundﬁsh Fishery Management Plan, the FMP
for the Paciﬁc Groundﬁsh Fishery that covers the
United States’ territorial waters off the coast of Washington, Oregon, and California (the “Fishery”). Cf. 42
Fed. Reg. 12,937-98 (Mar. 7, 1977). The Fishery is overseen by the Paciﬁc Fishery Management Council (the
“Council”). See 16 U.S.C. § 1852(a)(1)(F). Every two
years, the Council establishes catch limits, which “represent an annual quantity of ﬁsh that the groundﬁsh
ﬁshery as a whole may catch.” See Pac. Coast Fed’n of
Fishermen’s Ass’ns v. Blank, 693 F.3d 1084, 1089 (9th
Cir. 2012). Prior to the amendments at issue in this
case, the Council regulated the Fishery’s catch limits
through trip, gear, and season restrictions. See id.; see

App. 31
also 75 Fed. Reg. 32,994, 32,995–96 (June 10, 2010).
Beginning in 2003, however, the Council began developing a new LAPP to manage the Fishery instead. Pac.
Coast, 693 F.3d at 1089.
C. Challenged Amendments
Amendments 20 and 21 to the Fishery’s FMP created a new LAPP – the IFQ Program – through which
participants receive permits to harvest a speciﬁc portion or quota share (“QS”) of the Fishery’s total allowable catch. The Council presented the amendments to
NMFS on May 7, 2010. See Dkt. No. 72–4 (letter from
Council to NMFS). NMFS approved the amendments
in August 2010, and issued two sets of regulations codifying the amendments. See 75 Fed. Reg. 60,868 (Oct.
1, 2010); 75 Fed. Reg. 78,344 (Dec. 15, 2010). The IFQ
Program became effective on January 1, 2011, and established the following provisions relevant to this action: (1) a 2.7% aggregate limit on the amount of total
QS of all non-whiting species ﬁshed in the Paciﬁc Fishery that a person or entity may own or control, see 50
C.F.R. §§ 660.11, 660.140(d)(4)(i)(C); (2) a regulation
that deﬁnes “control” as, inter alia, “the ability through
any means whatsoever to control or have a controlling
inﬂuence” over QS, 50 C.F.R. § 660.11; (3) a divestiture
rule that required any participant whose ownership
or control of QS exceeded the 2.7% limit to divest
its excess shares by November 30, 2015, 50 C.F.R.
§ 660.140(d)(4)(v); and (4) a revocation provision
providing that NMFS would automatically revoke any

App. 32
excess QS not divested by the November 30, 2015,
deadline, 50 C.F.R. § 660.140(d)(4)(v).
On November 9, 2015, NMFS issued a ﬁnal rule
detailing the speciﬁc process for revocation of QS,
added an option for the abandonment of QS, established that excess QS would be proportionally revoked
across ﬁsh species and permits, and reafﬁrmed that revoked QS would be proportionally distributed among
the Paciﬁc Fishery participants (the “2015 Rule”). See
80 Fed. Reg. 69,138 (Nov. 9, 2015).
D. Plaintiffs’ Quota Share
Paciﬁc Fishing is a limited liability company
(“LLC”) that owns, inter alia, six other LLCs, including
Plaintiff Sea Princess, which in turn own vessels that
participate in the Fishery. See Dkt. No. 71 ¶ 2. Plaintiff
Paciﬁc Choice Seafood Company operates a seafood
processing facility year-round in Eureka, California.
See Dkt. No. 70 at 8. According to Plaintiffs, more than
half of the groundﬁsh it receives comes from four ﬁshing vessels, all owned by LLCs that are, in turn, owned
by Plaintiff Paciﬁc Fishing. See id.
On July 28, 2015, Plaintiff Paciﬁc Fishing received
a letter from NMFS informing the company that it
owned QS in excess of the aggregate limit and would
have to divest by November 30, 2015, or NMFS would
revoke the excess QS. Dkt. No. 71, Ex. A. Paciﬁc Fishing divested its shares by the November 30 deadline.
See id. ¶ 6.

App. 33
II.

LEGAL STANDARD

The Court’s review in this action is governed by
the Administrative Procedure Act (“APA”). Vt. Yankee
Nuclear Power Corp. v. Natural Res. Def. Council, Inc.,
433 U.S. 519, 558 (1978); 16 U.S.C. § 1855(f )(1); 5 U.S.C.
§ 706(2)(A)–(D). The Court must set aside regulations
if they are “arbitrary, capricious, an abuse of discretion
or otherwise not in accordance with law. . . .” 5 U.S.C.
§ 706(2)(A). Summary judgment is an appropriate procedural mechanism “for deciding the legal question of
whether the agency could reasonably have found the
facts as it did.” Occidental Eng’g Co. v. INS, 753 F.2d
766, 770 (9th Cir. 1985). Under the arbitrary and capricious standard, the Court must “determine whether
the Secretary has considered the relevant factors and
articulated a rational connection between the facts
found and the choices made.” Midwater Trawlers Coop
v. Dep’t of Comm., 282 F.3d 710, 716 (9th Cir. 2002).
This standard is deferential, presuming the agency action to be valid and afﬁrming if there is a reasonable
basis for the decision. Ranchers Cattlemen Action Fund
v. U.S. Dep’t of Agric., 499 F.3d 1108, 1115 (9th Cir.
2007). The Court reviews the administrative record as
a whole, and decides whether the action is acceptable.
See Citizens to Pres. Overton Park v. Volpe, 401 U.S. 402,
420 (1971); see also Ranchers Cattlemen Action Fund,
499 F.3d at 1115.

App. 34
III. ANALYSIS
Plaintiffs challenge the IFQ Program, contending
that NMFS acted ultra vires in deﬁning the scope of
ownership and control over QS and set an arbitrary
and capricious aggregate limit on QS. Plaintiffs allege
that as a result of these illegal rules, they had to divest
valuable QS. The Court ﬁrst addresses the ownership
and control limitations and then turns to the aggregate
limit.3
A. Ownership and Control
The IFQ Program limits how much QS a person
may own or control, either individually or collectively.
See 50 C.F.R. § 650.140(d)(4). Under the program, “[n]o
person may own or control, or have a controlling inﬂuence over, by any means whatsoever an amount of
QS . . . that exceeds [the aggregate limit].” Id.
§ 660.140(d)(4)(i)(A). “[O]wnership” of QS includes the
QS owned by a person as well as the portion of QS
“owned by an entity in which that person has an economic or ﬁnancial interest, where the person’s share of
interest in that entity will determine the portion” it
deems “owned” by the person. Id. § 660.140(d)(4)(ii).
“Control” includes “the ability through any means
whatsoever to control or have a controlling inﬂuence
over [an] entity to which QS . . . is registered.” Id.
3

Plaintiffs concede that they “are not pursuing their Fourth
and Fifth Claims for Relief.” See Dkt. No. 70 at i, n.1; see also Dkt.
No. 14 ¶¶ 64–74. Accordingly, the Court GRANTS summary judgment as to these claims.

App. 35
§ 660.140(d)(4)(iii)(H). The IFQ Program based its initial allocation of QS on prior ﬁshing history before the
implementation of the Program. See id. § 660.140(d)(8).
Plaintiffs challenge the deﬁnitions of “ownership”
and “control” as overly expansive and charge that as a
consequence, “permit holders are left with an extraordinarily low Aggregate Limit and no certainty about
how to conduct business in a way that does not run
afoul of the Ownership and Control Rules.” Dkt. No. 70
at 10.
i. Corporate Common Law
Plaintiffs ﬁrst contend that NMFS acted ultra
vires by adopting deﬁnitions of ownership and control
that conﬂict with traditional notions of “common law
corporation principles.” See Dkt. No. 70 at 10–18. Because the Magnuson Act does not explicitly authorize
NMFS to regulate contrary to these principles, Plaintiffs urge the Court to set the ownership and control
rules aside as “not in accordance with law” and “in excess of statutory jurisdiction, authority, or limitations,
or short of statutory right.” 5 U.S.C. § 706(2)(A), (C).
The United States Supreme Court has stated that
“Congress is understood to legislate against a background of common-law adjudicatory principles . . .
where a common-law principle is well established” and
no “statutory purpose to the contrary is evident.” Astoria Fed. Loan Ass’n v. Solimino, 501 U.S. 104, 108
(1991) (ﬁnding federal Age Act action was not precluded by state administrative rulings regarding

App. 36
age-discrimination claims). Plaintiffs argue that the
Magnuson Act explicitly invokes corporate law principles because under the IFQ program, QS permits may
be owned by “persons, corporations, partnerships, or
other entities.” See 50 C.F.R.§ 660.11 (deﬁning “ownership interest”) (emphasis added). Plaintiffs identify
two relevant common law principles that the ownership and control deﬁnitions violate. First, Plaintiffs
state that assets of a corporation are owned by the corporation, and not its shareholders. See Dkt. No. 70 at
11 (citing Hawley v. City of Malden, 232 U.S. 1, 9
(1914)). And second, as a corollary, assets of a corporation are controlled by the corporation’s ofﬁcers and directors, and not the individual shareholders. See id. at
12 (citing Humphreys v. McKissock, 140 U.S. 304, 312
(1891); Dole Food Co. v. Patrickson, 538 U.S. 468, 475
(2003)).
According to Plaintiffs, the deﬁnitions of ownership and control violate these common law principles
and render the corporate structure a nullity: under the
IFQ Program, NMFS may consider the assets of a subsidiary, or even the assets of a controlling shareholder,
for purposes of determining QS share. Cf. Dole Food Co.
v. Patrickson, 538 U.S. 468, 474 (2003) (“A basic tenet
of American corporate law is that the corporation and
its shareholders are distinct entities.”); United States
v. Bestfoods, 524 U.S. 51, 61 (1998) (citing cases). Further, Plaintiffs contend that NMFS actually did ignore
Plaintiffs’ corporate structure by considering Plaintiff
Sea Princess LLC’s QS when determining whether its
parent company, Plaintiff Paciﬁc Fishing, LLC, owned

App. 37
or controlled QS in excess of the aggregate limit. See
Dkt. No. 70 at 7; see also Dkt. No. 71, & Ex. A. The
Court is not persuaded by Plaintiffs’ reasoning.
As an initial matter, the Court ﬁnds that the ownership and control deﬁnitions do not displace corporate
law principles because they do not alter or interfere
with corporate structure or corporate assets. Rather,
they impose conditions on QS—a regulatory privilege
that does no more than “grant [ ] permission . . . to engage in activities permitted by [the IFQ Program].” See
16 U.S.C. § 1853a(b)(5). As contemplated by Congress,
QS “may be revoked, limited, or modiﬁed at any time.”
See id. § 1853a(b)(2). Moreover, Congress explicitly
stated that QS “shall not confer any right of compensation to the holder . . . if it is revoked, limited, or modiﬁed.” 16 U.S.C. § 1853a(b)(3). Although corporations
like Plaintiffs may participate in the IFQ Program,
and may transfer, sell, or even lease QS, see 16 U.S.C.
§§ 1853a(c)(1)(D), (c)(5)(D) (c)(7), they do so subject to
these broad limitations. Cf. 75 Fed. Reg. 32,994, 33,040
(June 10, 2010) (characterizing the IFQ Program as
“confer[ring] a conditional privilege of participating in
the Paciﬁc coast groundﬁsh ﬁshery.”). The relevant
ownership and control deﬁnitions are merely embodiments of these authorized statutory limitations, and
place conditions on participation in the IFQ Program.
See 50 C.F.R. § 650.140(d)(4).
Plaintiffs counter that the Ninth Circuit has considered QS “property” under similar programs, see Foss
v. Nat’l Marine Fisheries Serv., 161 F.3d 584, 588–89
(9th Cir. 1998), such that traditional notions of

App. 38
ownership and control circumscribe the limitations
NMFS may place on QS. The Ninth Circuit’s holding in
Foss, however, says nothing about the limitations that
NMFS may place on QS, as long as it provides adequate due process. In Foss, the plaintiff challenged
NMFS’ denial of his application for a ﬁshing quota for
halibut and sableﬁsh as untimely during the LAPP
program’s initial allocation period. See id. at 586–88.
In determining whether the plaintiff had a protectable
property interest in the permit for purposes of due process, the Court focused on whether NMFS had discretion to reject applicants who met the statutory criteria
for the permits. Id. at 587–88. The Court concluded
that the plaintiff “ha[d] a protectable property interest
in receiving the IFQ permit” because an applicant’s eligibility turned on objective qualiﬁcations, and the regulations signiﬁcantly restricted NMFS’ discretion in
issuing them. Id. The Court nevertheless held that
NMFS had afforded the plaintiff an adequate opportunity to present his case, and thus satisﬁed the requirements of due process. Id. at 590 (citing Mathews
v. Eldridge, 424 U.S. 319, 348–49 (1976)). Here, in contrast, the statutory language explicitly permits NMFS
to limit, modify, or even revoke QS, and Plaintiffs do
not raise any due process challenges to the regulatory
ownership and control deﬁnitions.4
4

The Court also notes that those few courts that have addressed whether similar ﬁshing permits create substantive property rights have concluded that they do not. See Coastal
Conservation Ass’n v. Locke, No. 2:09-CV-641-FTM-29, 2011 WL
4530631, at *17–*19 (M.D. Fla. Aug. 16, 2011), report and recommendation adopted sub nom. Coastal Conservation Ass’n v. Blank,

App. 39
Plaintiffs’ other cases are similarly inapposite.
Critically, none involve regulatory privileges or the
conditions placed on them. Rather, United States v.
Bestfoods concerned whether liability may be imposed
on corporate parents for their subsidiaries’ conduct.
524 U.S. 51, 62 (1998). The Supreme Court rejected
such derivative liability for parents based on polluting
facilities owned or operated by their subsidiaries under the Comprehensive Environmental Response,
Compensation and Liability Act (“CERCLA”) absent a
showing that corporate veil-piercing was warranted.
Id. at 63–64. In doing so, the Court reasoned that CERCLA did not “speak directly” to whether that statute
would abrogate corporate law’s limited liability principles. Id.; see also Dole Food, 538 U.S. at 476 (declining
to pierce the corporate veil and consider a corporation’s
subsidiary an “instrumentality” of Israel under the
Foreign Sovereign Immunities Act of 1976 absent a
statutory text or structure that encompasses indirect
ownership). Ignoring corporate formalities in that context would impose liability on the back end without
No. 2:09-CV-641-FTM-29, 2011 WL 4530544 (M.D. Fla. Sept. 29,
2011); Conti v. United States, 291 F.3d 1334, 1341–42 (Fed. Cir.
2002) (ﬁnding no property interest in swordﬁsh ﬁshing permit
cognizable under the Fifth Amendment Takings Clause because
permit was merely revocable license); Gen. Category Scallop Fishermen v. Sec’y of U.S. Dep’t of Commerce, 720 F. Supp. 2d 564, 576
(D.N.J. 2010), aff ’d sub nom. Gen. Category Scallop Fishermen v.
Sec’y, U.S. Dep’t of Commerce, 635 F.3d 106 (3d Cir. 2011) (same).
Cf. Am. Pelagic Fishing Co., L.P. v. United States, 379 F.3d 1363,
1373–83 (Fed. Cir. 2004) (ﬁnding no property interest in ﬁshing
for mackerel and herring cognizable under the Fifth Amendment
Takings Clause).

App. 40
affording notice to the corporations of this interpretation. Here, however, NMFS has, at the outset, placed
conditions on a corporation’s voluntary participation in
the IFQ Program and its control over and use of QS.
Moreover, to the extent Congress generally legislates against the backdrop of some body of common law
corporate principles,5 this assumption does not apply
“when a statutory purpose to the contrary is evident.”
Astoria, 501 U.S. at 108. And here, the statutory purpose is manifest. As discussed above, the Magnuson
Act did not intend for QS to be treated as a property
right, but rather a privilege subject to conditions. See
16 U.S.C. § 1853a(b). Congress also provided NMFS
with broad discretion over what conditions it could impose. Congress charged NMFS with ensuring “fair and
equitable” allocation of ﬁshing privileges such that “no
particular individual, corporation, or other entity acquires an excessive share of such privileges.” See 16
U.S.C. § 1851(a)(4); see also 16 U.S.C. § 1853a(c)(5)(D)
(requiring that LAPP programs establish measures “to
prevent an inequitable concentration of limited access
privileges”). Additionally, NMFS must “provide for the
sustained participation of [ﬁshing] communities,” and
minimize adverse impacts on such communities. Id.
§ 1851(a)(8). In doing so, NMFS “shall consider the
5

The Court also has concerns with Plaintiffs’ failure to fully
identify the contours of the “federal corporate common law” that
they claim forms the basis of the “well established” backdrop
against which Congress legislated. See Astoria, 501 U.S. at 108.
At the hearing on the cross-motions for summary judgment,
Plaintiffs acknowledged that they had only identiﬁed the “primary” components of the applicable federal common law.

App. 41
basic cultural and social framework of the ﬁshery,” and
develop both “policies to promote the sustained participation of small owner-operated ﬁshing vessels and
ﬁshing communities that depend on the ﬁsheries” and
“procedures to address concerns over excessive geographic or other consolidation in the harvesting or processing sectors of the ﬁshery.” 16 U.S.C. § 1853a
(c)(5)(B).
The Magnuson Act thus directs the agency to look
broadly at how and where QS is concentrated. Cf. Astoria, 501 U.S. at 107–13 (analyzing statutory purpose
underlying federal Age Act to determine if federal action was precluded by state administrative ﬁndings);
see also United States v. Texas, 507 U.S. 529, 534–36
(1993) (analyzing statutory structure and purpose of
Debt Collection Act of 1982 to determine if it abrogates
federal common-law right to collect prejudgment interest on debts owed by the States). The ownership and
control deﬁnitions were accordingly designed to effectuate the statutory directives and eliminate an obvious
loophole that would exist in the IFQ Program if individuals could avoid the aggregate limit simply by creating new, nominally separate entities to accumulate
more QS.6 Cf. Administrative Record (“AR”) Disk 3 at
467–70 (Council meeting minutes discussing ownership and control aggregate limit deﬁnitions); see also
6

The potential for circumvention is evident from Plaintiffs’
own recognition that more than half of the groundﬁsh that Plaintiff Paciﬁc Choice Seafood Company receives comes from four ﬁshing vessels, all owned by LLCs that are, in turn, owned by
Plaintiff Paciﬁc Fishing. See Dkt. No. 70 at 8.

App. 42
AR Disk 1 B.22 at 1053–59 (Final Environmental Impact Statement detailing Council’s analysis for passing
and implementing ownership and control deﬁnitions).
The Council attempted to balance the risk of circumvention against the risk of “[u]nintended constraints
on business arrangements,” as well as the need for an
efﬁcient and cost-effective enforcement mechanism.
See id. at 1057–58; see also id. at 1053 (acknowledging
that the proposed deﬁnitions would “make it more difﬁcult for an individual to circumvent the [aggregate
limit] by exerting inﬂuence over a number of different
legal entities (e.g., partnerships or corporations)”).
The Court ﬁnds that NMFS acted within its statutory authority when deﬁning ownership and control
for purposes of the IFQ Program.
ii. Agency Discretion
Plaintiffs also argue brieﬂy that the deﬁnition of
“control” is arbitrary and capricious because it grants
NMFS “unlimited discretion to ﬁnd ‘control’ in any unidentiﬁed conceivable circumstances.” Dkt. No. 70 at 19
(citing 5 U.S.C. § 706(2)(A)). In addition to enumerating several illustrative circumstances in which a person “controls” QS, NMFS also included a catchall
provision, ﬁnding “control” where “[t]he person has the
ability through any means whatsoever to control or
have a controlling inﬂuence over the entity to which
QS . . . is registered. . . .” 50 C.F.R. § 660.140(d)(4)(iii)
(emphasis added).

App. 43
Plaintiffs fail to explain why this discretionary
language constitutes an abuse of discretion. Rather,
they cite a single case, Mission Group Kansas, Inc. v.
Riley, in which the Tenth Circuit interpreted regulations promulgated by the Secretary of Education under
the Higher Education Act of 1965 (“HEA”). Mission,
146 F.3d 775, 784 (10th Cir. 1998). In Mission, the Secretary required a non-proﬁt institution to derive at
least 15% of its gross revenue from sources other than
Title IV as part of its provisional certiﬁcation to participate in programs under Title IV (the “85/15 Rule”). See
id. at 777–78. The Secretary relied on its own regulation, which conditions provisional certiﬁcation on “the
institution’s . . . compliance with any additional conditions speciﬁed in the institution’s program participation agreement that the Secretary requires the
institution to meet. . . .” Id. at 777 (emphasis in original) (citing 34 C.F.R. § 668.13(c)(4)(ii)).
The district court invalidated the Secretary’s action as beyond the authorization granted by the HEA.
Id. at 778. Contrary to Plaintiff ’s suggestion, the Tenth
Circuit did not reject the Secretary’s conduct as arbitrary and capricious. See id. 780–85. The Court instead
reversed the district court’s application of Chevron deference and remanded the action for further ﬁndings.
Id. (citing Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837, (1984)). Although
the Court noted in passing that the “unrestrictive” language in the regulations could render them “open to
challenge as unconstitutionally vague,” the plaintiff in
Mission did not raise that argument. Id. at 781, & n.6.

App. 44
Here too, Plaintiffs do not raise a vagueness argument.
Accordingly, the Court does not address this claim except to point out, as discussed above, that the “control”
deﬁnition is tethered to a speciﬁc goal of preventing
circumvention of the aggregate limit. Cf. AR Disk 1
B.22 at 461, 547–48 (Final Environmental Impact Report discussing how aggregate limits may affect processors and ﬁshing communities); see also id. at 1058
(noting Council’s proposed “control” deﬁnition is based
on the North Paciﬁc Crab Rationalization Program’s
deﬁnition, which encompasses all persons who “ha[ve]
the ability through any other means whatsoever to
control the entity to which the QS is registered”).
B. Aggregate Limit
Plaintiffs next contend that NMFS’ decision to set
the aggregate limit at 2.7% is arbitrary and capricious
because NMFS did not engage in “reasoned decisionmaking.” See Dkt. No. 70 at 19. Plaintiffs argue
that NMFS failed to provide a clear interpretation of
ambiguous statutory terms in the Magnuson Act, including the meaning of “excessive share” and “inequitable concentration,” and that NMFS failed to provide
a reasoned explanation for its decision setting the aggregate limit. The Court addresses each argument in
turn.

App. 45
i. Ambiguous Terms
Under the Magnuson Act, NMFS must, inter alia,
“ensure that limited access privilege holders do not acquire an excessive share of the total limited access privileges in the program.” See 16 U.S.C. § 1853a(c)(5)(D)
(emphasis added). To do so, the Act guides NMFS to
“establish[ ] any other limitations or measures necessary to prevent an inequitable concentration of limited
access privileges.” Id. § 1853a(c)(5)(D)(ii) (emphasis
added). Plaintiffs contend that “excessive share” and
“inequitable concentration” are ambiguous terms, and
thus NMFS had to deﬁne them before setting the aggregate limit. See Dkt. No. 70 at 20–23. Plaintiffs place
considerable weight on the D.C. Circuit’s reasoning in
Pearson v. Shalala, in which the court explained that
in order to provide a reasoned explanation for its rejection of the plaintiff ’s health claims, and to avoid arbitrary and capricious action, the FDA had to “giv[e]
some deﬁnitional content to the phrase ‘signiﬁcant scientiﬁc agreement.’ ” See Pearson, 164 F.3d 650, 660
(D.C. Cir. 1999) (“To refuse to deﬁne the criteria it is
applying is equivalent to simply saying no without explanation.”). The D.C. Circuit clariﬁed, however, that
the FDA was not “obliged to issue a comprehensive definition all at once.” Id. Instead, “it must be possible for
the regulated class to perceive the principles which are
guiding agency action.” Id.
The Court ﬁnds that NMFS has sufﬁciently articulated “the principles which are guiding” its determination of the aggregate limit. As an initial matter, the
Court notes that the Magnuson Act provides some of

App. 46
its own guidance, explaining that any LAPP should
“promote . . . (i) ﬁshing safety; (ii) ﬁshery conservation
and management; and (iii) social and economic beneﬁts” to the ﬁshery. 16 U.S.C. §§ 1853a(c)(1)(C). The initial allocations of QS should be “fair and equitable,”
taking into account the need to develop and sustain
small owner-operated vessels and ﬁshing communities, including “those that have not historically had the
resources to participate in the ﬁshery.” See id.
§§ 1853a(c)(3)(A)–(B), (c)(4)(C), (c)(5)(B), (c)(5)(D); see
also id. § 1851(a)(8) (“Conservation and management
measures shall . . . take into account the importance of
ﬁshery resources to ﬁshing communities by utilizing
economic and social data . . . in order to (A) provide for
the sustained participation of such communities, and
(B) to the extent practicable, minimize adverse economic impacts on such communities.”).
Moreover, in 2007, NMFS, in collaboration with
the Regional Fishery Management Councils, issued
“The Design and Use of Limited Access Privilege Programs” (the “Guidance”). See AR Disk 1 H.527 at 59–
69. In it, the issuers of the Guidance detail their primary concerns with concentration of QS: market power
inequities (i.e., monopoly with a single seller or monopsony with a single buyer) and changes to the ﬁshing
communities more broadly. See id. at 59–61. The Guidance explains that taking into account both market
power (“MP”) and the council’s ﬁshery management
objectives (“MO”) may “assure that potential share accumulation is consistent with management objectives
and [ ] protect consumers against manipulation of

App. 47
market prices.” Id. at 62–63. The Groundﬁsh Management Team (“GMT”) relied on this Guidance when analyzing aggregate limits in March 2009, proposing
levels that would limit the accumulation of market
power and distribute the beneﬁts of QS ownership
across more entities. See AR Disk 1 H.497 at 2–3. This
2009 GMT report further noted that the “one vessel,
one owner” approach to QS harmonized with the “history of independent ‘small entity’ vessel owners in the
[F]ishery,” and would provide a useful reference point
when setting control limits. Id. at 4–6. The Council, in
turn, relied on GMT’s analysis while developing the
IFQ Program. See id. H.497 at 2–3, 7; see also id.
H.500–01.
Similarly, the June 2010 Final Environmental Impact Statement (“FEIS”) explains that the Council
considered the “ordinary meanings” of the terms “excessive” and “inequitable” to determine levels of QS
ownership and usage that were not “unreasonable, unnecessary, or unfair considering the Council’s overall
management objectives for the [F]ishery.” See AR Disk
1 B.22 at 1064. The FEIS further explains that:
What constitutes ‘excessive shares’ may be socially determined or economically determined. On an economic basis, an excessive
share would be one that would be expected to
result in a sector with market power . . . From
a social policy perspective, concentration of
ownership affects the social and community
structure and the sense of equity that may, in
part, be grounded in the history of ﬁshery

App. 48
management, which has largely been based
on common property concepts.
See id. at 860; see also id. at 461 (placing limits to “affect the distribution of economic performance” in ﬁshing communities); id. at 547 (noting that the proposed
2.7% aggregate limit “could provide new avenues for
community involvement in the ﬁshing industry that
could beneﬁt communities both socially and economically . . . Theoretically, if there were no control limits
. . . one community or company could buy up all the QS
to the detriment of all other communities and businesses.”). In short, the administrative record indicates
that NMFS interpreted “excessive share” and “inequitable concentration” to mean “unreasonable, unnecessary, or unfair,” see id. at 1064, and grounded its
determination of the aggregate limit in concerns regarding entities’ market power, while considering the
need to foster development of diverse ﬁshing communities in the Fishery.
In response, Plaintiffs contend that NMFS’ aggregate limit was nevertheless arbitrary and capricious
because NMFS failed to follow its own Guidance. See
Dkt. No. 79 at 9–12. The Court is not persuaded. Plaintiffs artiﬁcially limit NMFS’ determination of the aggregate limit to a mathematical formula based on MP
and MO. See id. at 10–11. However, the Guidance itself
explains that “the basic philosophy underlying the
[Guidance] is that the Councils should have as much
latitude as possible as they design ﬁshery management plans.” See AR Disk 1 H.527 at 10. Although market power may be easily derived and informed by

App. 49
existing antitrust principles, the Guidance further explains that there are no established rules for setting
the MO. Id. at 61–69. Rather, aggregate limits will be
determined based on balancing different management
objectives alongside market power limitations. Id.
NMFS identiﬁed such management objectives, and, as
discussed below, provided a reasoned explanation for
setting the aggregate limit.
ii. Reasoned Explanation
Plaintiffs next contend that NMFS adopted the
Council’s recommendation without any of its own analysis, and that even the Council’s analysis is insufﬁcient
to support the 2.7% aggregate limit. The Court ﬁnds
that NMFS acted within its authority to adopt the
Council’s reasoning, and that it has articulated a reasoned explanation to support the 2.7% aggregate limit.
a. Agency Decision
As a threshold matter, the Court is not persuaded
by Plaintiffs’ attempts to differentiate the analysis
conducted by the Council from the analysis adopted by
NMFS. See Dkt. No. 70 at 24–25. Plaintiffs emphasize
that the APA limits judicial review to “ﬁnal agency action[s] for which there is no other adequate remedy in
a court.” 5 U.S.C. § 704 (emphasis added). Plaintiffs,
therefore, ask the Court to limit its review to the face
of the ﬁnal rule, and state that “there is no explanation
for why NMFS decided to set the Aggregate Limit at
2.7%.” Id. at 25 (emphasis in original).

App. 50
In evaluating agency action, the Court reviews the
entire administrative record. See San Luis & DeltaMendota Water Auth. v. Locke, 776 F.3d 971, 992 (9th
Cir. 2014). Doing so ensures that the reviewing court
does not “substitute its judgment for that of the
agency,” in contravention of the substantial discretion
the APA generally affords agencies. Id. In the context
of the Magnuson Act, the entire record includes the
analysis conducted by the councils. See, e.g., Fishermen’s Finest, Inc. v. Locke, 593 F.3d 886, 888–900 (9th
Cir. 2010). In Fisherman’s Finest, for example, the
plaintiff challenged an amendment to the relevant
FMP, which reduced the allocation of Paciﬁc cod for
plaintiff ’s speciﬁc ﬁshing sector (in an FMP based on
ﬁshing methods and gear restrictions rather than QS).
See id. at 889–92. In concluding that the Secretary, acting through NMFS, did not act arbitrarily and capriciously in amending the Paciﬁc cod allocation, the
Court considered the Council’s analysis interchangeably with NMFS’ own. See, e.g., id. at 895–96 (addressing plaintiff ’s argument that “NMFS failed to analyze
the impact of the allocations” by considering what “the
Council [ ] consider[ed]” (emphasis added)). Plaintiffs
point out that the ﬁnal rule at issue in Fisherman’s
Finest made reference to the council and some of its
reasoning. See 72 Fed. Reg. 50788, 50,792–96. However, the Court in Fisherman’s Finest did not condition
its reliance on the council’s reasoning on the presence
of any speciﬁc language in the ﬁnal rule adopting the
council’s analysis. Cf. Nat’l Fisheries Inst., Inc. v.
Mosbacher, 732 F. Supp. 210, 223 (D.D.C. 1990) (“It is
[ ] especially appropriate for the Court to defer to the

App. 51
expertise and experience of those individuals and entities – the Secretary, the Councils, and their advisors –
whom the [Magnuson] Act charges with making difﬁcult policy judgments and choosing appropriate conservation and management measures based on their
evaluations of the relevant quantitative and qualitative factors.”).
Plaintiffs’ cases are not to the contrary. In Anglers
Conservation Network v. Pritzker, the D.C. Circuit
stated that “[a]n action by the Mid–Atlantic Council
does not qualify as an ‘agency action’ under the APA
because . . . a ﬁshery management council is not itself
an ‘agency’ subject to judicial review.” 70 F. Supp. 3d
427, 437 (D.D.C. 2014), aff ’d, 809 F.3d 664 (D.C. Cir.
2016). The question before the Court in Anglers, however, was whether it could review the council’s decision
not to propose an amendment to NMFS that would include certain ﬁsh species in the relevant ﬁshery. Id. at
433–34. The council had not proposed an amendment
and NMFS had not issued any ﬁnal rule. Id. The Court
concluded that there was no ﬁnal agency action to review. Id. at 436–37. In contrast, the Amendments and
the 2015 Rule constitute ﬁnal agency action, and the
relevant question is the content of the administrative
record. Similarly inapposite are Plaintiffs’ cases criticizing courts’ reliance on an agency’s post hoc rationalizations for its decisions. See, e.g., Otay Mesa Prop., L.P.
v. U.S. Dep’t of Interior, 646 F.3d 914, 917 (D.C. Cir.
2011) (rejecting the Fish and Wildlife Service’s attempts to explain its decisionmaking with a new theory not in the ﬁnal rule and outside the administrative

App. 52
record). The administrative record that NMFS points
to in this case was created before this litigation began.
b. Record Support
The Court ﬁnds that in evaluating the record as a
whole, there is ample support for NMFS’ adoption of
the 2.7% aggregate limit. In its rulemaking documentation, NMFS refers throughout to the Council’s analysis, noting the breadth of considerations at play in
establishing the aggregate limit:
In developing limits, the Council noted the
tension between allowing sufﬁcient accumulation to improve the efﬁciencies of harvesting
activities and preventing levels of accumulation that could result in adverse economic and
social effects. In determining the appropriate
levels, the Council considered a wide range of
factors such as social beneﬁts, impact on labor,
impacts on processors, impacts on harvesters,
impacts on the public, the number and sizes
of ﬁrms, within-sector competition, market
power, efﬁciency, geographic distribution,
communities, and fairness and equity.
See 75 Fed. Reg. 32,994, 33,004 (June 10, 2010). NMFS
also identiﬁed the FEIS as a key component of the
agency’s analysis. See id. at 33,019, 33,025. The FEIS,
prepared by NMFS and the Council, describes the
years-long process to set an appropriate aggregate
limit. See AR Disk 1, B.22 at 1064–68. The process involved input from multiple sources, including the
Council’s advisory bodies: the GMT, the Groundﬁsh

App. 53
Allocation Committee (“GAC”), and the Groundﬁsh Advisory Subpanel (“GAP”). See, e.g., id. at 1065–77. The
FEIS explains the 2.7% aggregate limit by incorporating their analysis. Id.
Beginning in 2007, the GAC formulated aggregate
limit proposals based on vessels’ past performance in
the Fishery. See id. at 1065. They analyzed limits that
were generally at or above initial QS allocations,
“pa[ying] particular attention to the maximum ﬂeet
consolidation level, or minimum ﬂeet size, permitted
by a particular accumulation limit.” Id. Further analysis continued through 2008. Id. at 1065–68. Part of this
early analysis measured the degree of market concentration at various control limits, as a proxy for competition in the Fishery. See id. H.431 at 15. The Council
used a tool called the “Herﬁndahl Index,” and concluded that “a 10 percent limit on aggregate non-whiting quota share will assure an unconcentrated
outcome” in the Fishery. Id. The Council further noted
that its current proposed aggregate limit of between
1.5 and 3% would fall within the “unconcentrated”
range. Id. at 20–21.
Despite Plaintiffs’ contention in their motion, the
Herﬁndahl Index’s 10 percent ceiling need not – and
did not – end the inquiry. The Council emphasized that
the “accumulation limits are aimed at more than just
preventing market power or other anticompetitive
situations from developing in the ﬁshery.” See AR Disk
1 B.22 at 1064–68; see also id. at 1052 (rejecting reliance solely on antitrust laws because “the level of aggregation required to establish the anticompetitive

App. 54
behaviors that are of antitrust concern may be substantially greater than the levels of aggregation that
trigger concerns about fairness and equity, geographic
distribution, communities, or sector health”). Instead,
the Council endeavored “to identify percentage limits
that would be low enough to prevent excessive control
and use of QS/QP, while at the same time, high enough
not to interfere with the objectives of providing for improved operational ﬂexibility for the ﬂeet and a viable,
proﬁtable, and efﬁcient groundﬁsh ﬁshery.” See id. at
1064.
The GMT subsequently utilized a revenue-based
approach to account for the size and proﬁtability of the
Fishery, speciﬁcally ensuring adequate revenue for
participating vessels. See id. H.497. The GMT relied on
a 2008 study that reviewed the revenue from the Fishery’s ﬂeet and found that most were only generating
enough money to cover costs rather than generating an
appreciable proﬁt. See id. B.22 at 1071. The study suggested that consolidating to between 40 and 50 vessels
in the Fishery could increase revenue estimates. Id. at
1071–72. But the GMT noted that under its approach,
the species-speciﬁc limits are high and “could increase
control and consolidation of quota ownership in the
[F]ishery.” Id. H.497 at 20. It therefore recommended a
lower aggregate limit as a “vital safeguard for achieving the Council’s other management objectives for
accumulation limits.” Id. at 20, 22–23. The GMT explained that with the proposed species limits and
lower aggregate limits, an “independent vessel owner
has the choices of which limits to pursue in attempting

App. 55
to reach the maximum revenue possible under the aggregate limit.” Id. at 22. The GMT emphasized that
this provided ﬂexibility to Fishery participants while
still “maintaining an overarching level of control over
individual operations.” Id. After explaining its revenue
formula, the GMT presented a range of aggregate limits, noting that an aggregate limit of 2.3% would
achieve more consolidation in the Fishery, but a 2.7%
limit would allow entities to acquire their entire initial
QS allocation and maximize potential revenue. Id. at
23–24. Under its proposed framework, a person could
control enough QS for a vessel to harvest over $1 million in ﬁsh, as compared to the historic revenue of
$200,000 and the $700,000 achievable in a fully rationalized ﬁshery. Id. at 9–11, 15, 22; cf. AR Disk 1 B.22 at
1053–59.
The GAP then reviewed and endorsed this revenuebased framework, selecting the 2.7% aggregate limit.
See id. H.500 at 1. This recommendation, the FEIS
summarized, “would accommodate a fairly high level of
consolidation (down to as few as about 38 entities controlling QS) and would allow entities to control QS representing up to well over a million dollars of annual exvessel revenue.” Id. B.22 at 1073; see also id. at 810
(deﬁning “reasonable proﬁts” as the income necessary
to pay going market prices for all labor, supplies, capital, and entrepreneurial expertise used by a ﬁrm”).
Based on the record, the Court ﬁnds that the IFQ
Program, including the aggregate limit, was the product of a reasoned, iterative process that began in 2007
and continued through the IFQ Program’s adoption in

App. 56
2010. See, e.g., AR Disk 1 H.226 at 5; see also id. B.22
at 1064–77. Even assuming that NMFS’ reasoning
might offer “less than ideal clarity,” the basis for the
decision still “may reasonably be discerned” from the
administrative record. Motor Vehicle Mfrs. Ass’n of
U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29,
43 (1983) (quotations omitted). The breadth of NMFS’
consideration readily distinguishes this case from the
ones cited by Plaintiffs. In San Antonio, Tex. By &
Through City Pub. Serv. Bd. v. United States, the Interstate Commerce Commission (“ICC”) admittedly
adopted a shipping rate that included a 7% increment
above fully allocated costs based on nothing more than
its own “policy judgment” and without relevant data
from the railroads. San Antonio, 631 F.2d 831, 850–52
(D.C. Cir. 1980), decision clariﬁed, 655 F.2d 1341 (D.C.
Cir. 1981), rev’d sub nom. Burlington N., Inc. v. United
States, 459 U.S. 131 (1982). The ICC failed to articulate
“the methods by which, and the purposes for which” it
chose to set the shipping rate. Id. at 852. Similarly, in
Tripoli Rocketry Association, Inc. v. Bureau of Alcohol,
Tobacco, Firearms, & Explosives, the D.C. Circuit directed the action be returned to the agency because it
“never articulated the standards that guided its analysis” in categorizing ammonium perchlorate composite
propellant as an explosive. Tripoli, 437 F.3d at 81–83.
The Court ﬁnds that NMFS sufﬁciently explained both
its methodology and its reasoning.
Plaintiffs also attempt to undercut NMFS’ proffered reasoning by claiming that the analysis is premised on “ ‘fuzzy’ assumptions, numerous data gaps,

App. 57
uncertain projections, and [is] rushed and incomplete.”
See Dkt. No. 79 at 14–15 (citing GMT and GAP reports). NMFS acknowledges that its information is incomplete and at times imprecise, but Congress
explicitly charged NMFS with using the best information available. See 16 U.S.C. § 1851(a)(2) (“Conservation and management measures shall be based upon
the best scientiﬁc information available.” (emphasis
added)); cf. AR Disk 1 B.22 at 1064 (“Even with more
complete information, there are no analytical methods
for pinpointing precise thresholds above which limits
become excessive or inequitable. Rather, the process of
arriving at percentage limits involved an imprecise
balancing of management objectives that left much to
the policy discretion of the Council.”); id. H.467 at 50–
51. Plaintiffs do not suggest that better data or a more
precise methodology was available. Nor does Plaintiffs’
preference for a higher aggregate limit render NMFS’
determination arbitrary and capricious. As the Ninth
Circuit has explained, “[w]hen the administrative
agency has provided relevant data supporting its decision, we owe deference to the agency’s line-drawing.”
See Yakutat, Inc. v. Gutierrez, 407 F.3d 1054, 1072 (9th
Cir. 2005). The Court concludes that NMFS has adequately supported its aggregate limit, and thus Defendants did not act arbitrarily and capriciously.
C. 2015 Divestiture Rule
Lastly, Plaintiffs contend that the 2015 Rule, implementing divestiture of QS over species and aggregate limits, violates both the Magnuson Act and the

App. 58
APA. Plaintiffs state that this Rule was unlawful because it “is an outgrowth of, gives effect to, and extends
into the future” the ownership and control deﬁnitions
and the aggregate limit. See Dkt. No. 70 at 33. As discussed in Section III.A-B, the Court ﬁnds that these
facets of the IFQ Program were established pursuant
to the Magnuson Act and do not violate the APA. The
Court therefore, rejects Plaintiffs’ challenge on this basis.
Secondarily, Plaintiffs argue that NMFS violated
the APA because the 2015 Rule did not delay implementation of the QS divestiture while the Council determined QS reallocation for the widow rockﬁsh, part
of the non-whiting species in the Fishery. See id. at 33–
34. When NMFS initially adopted the IFQ Program, it
had determined that the widow rockﬁsh was an overﬁshed species and thus set low QS allocations for that
species. See AR Disk 4 PFD.788. However, in 2011, the
Council determined that the stock was “rebuilt” sufﬁciently to support reallocation. See id. It still had to determine how to do so, id., and in the meantime,
regulations prohibited the transfer and divestiture of
widow rockﬁsh QS, see 50 C.F.R. §§ 660.140(d)(3)(ii)
(B)(2), 660.140(d)(4)(v). Plaintiffs urge that NMFS
should have delayed implementation of the divestiture
rules until after the widow rockﬁsh reallocation because it risked a second, and costly divestiture if the
reallocation increased their QS above the aggregate
limit.
As with Amendments 20 and 21, the Court ﬁnds
that the administrative record supplies a reasoned

App. 59
explanation for the determination to move forward
with the divestiture. Both NMFS and the Council were
aware of the potential interaction between the widow
rockﬁsh reallocation and the divestiture timeline, and
the Council explored options for moving forward or delaying divestiture. See AR Disk 4 PFD.788; id.
PFD.755–56; id. PFD.822, 869–70. They had also determined that the reallocation of widow rockﬁsh QS
would only alter the species and aggregate limits for
two or three entities. See PFD.1070–71. The Council
reasoned that even if those entities could not engage
in their “optimal divestiture strategy,” they “will be
able to trade QS afterward to rebalance their accounts.” Id. PFD.756; see also id. PFD.914–20. Moreover, the Council analyzed the consequences of the
Rule across a variety of categories. Id. PFD.918–19.
The Council raised concerns about “fairness” and “equity” because a further delay would “extend[ ] the
amount of time those with amounts in excess of limits
beneﬁt, and delay[ ] the time before which others will
have access to that QS.” Id. PFD.919. The Council ultimately decided to move forward with the divestiture.
See id. at PFD.976–77. It further explained that “when
widow QS is reallocated, if the reallocation puts anyone above that aggregate limit, they will have until the
widow QS divestiture deadline [12 calendar months after the reallocation is completed] to bring themselves
back within the aggregate QS control limit.” Id. at
PFD.977; see also 80 Fed. Reg. 69,138, 69,140 (Nov. 9,
2015). The Court ﬁnds that Defendants did not act arbitrarily or capriciously in adopting the 2015 Rule.

App. 60
IV. CONCLUSION
Accordingly, the Court DENIES Plaintiffs’ motion
for summary judgment, and GRANTS Defendants’ motion for summary judgment in its entirety. The clerk is
directed to enter judgment in Defendants’ favor and to
close the case.
IT IS SO ORDERED.
Dated: 2/21/2018
/s/ Haywood S. Gilliam, Jr.
HAYWOOD S. GILLIAM, JR.
United States District Judge

